HHS/OIG-Audit-"Review of Overpayment Collections for AFDC by the State of Wyoming Department of Family Services (DFS)," (A-08-01-01049)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Overpayment Collections for AFDC by the State of Wyoming Department
of Family Services" (A-08-01-01049)
February 4, 2002
Complete
Text of Report is available in PDF format (993 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective
of our review was to determine whether Wyoming's Department of Family Services
(DFS) remitted the Federal share of Aid to Families with Dependent Children
(AFDC) overpayment collections to the Federal government after the program was
repealed.   The
DFS has systems in place to identify, collect, account for, and remit the Federal
share of AFDC overpayments.  However, the Federal share of AFDC overpayment
collections was deposited into a trust account and was not remitted quarterly
after the program was repealed.  Three payments totaling $125,722 were
made to the U.S. Department of Health and Human Services, Administration for
Children and Families between October 1999 and February 2000.  Those payments
represented the Federal share of AFDC overpayments collected during the period
January 1, 1997 through December 31, 1999.  At the time of our review,
the DFS had not remitted payments for the Federal share of AFDC overpayment
collections for the period January 1, 2000 through June 30, 2001.  Records
indicate that the Federal share of AFDC overpayment collections made during
that time period totals $50,921.